Kyle D. Hawkins
Solicitor General

(512) 936-1700
kyle.hawkins@oag.texas.gov

January 21, 2020
Via E-File and Federal Express
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
sharris@supremecourt.gov
Re:

California v. Texas, No. 19-840
United States House of Representatives v. Texas, No. 19-841
Motion to Extend Time to File Responses to Petitions for Writs of
Certiorari

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Individual and State Respondents respectfully submit this joint request for an extension of the time for filing their responses
to the petitions for writ of certiorari in California v. Texas, No. 19-840, and United
States House of Representatives v. Texas, No. 19-841.
The responses are currently due on February 3, 2020. Any potential cross-petitions
are due on March 17, 2020. A 43-day extension of the time to respond is needed
(1) to put the petitions and any cross-petitions on the same track for consideration
by the Court, and (2) because of the press of business from numerous complex matters with deadlines near the current deadline, which require significant time and attention from the undersigned counsel and other counsel assisting with this matter.
For the State Respondents, those matters include Respondent’s Brief on the Merits
to be filed in the Supreme Court of Texas in Torres v. Texas Department of Public
Safety, No. 19-0107, on January 21, 2020; en banc oral argument in Brackeen v. Bernhardt, No. 18-11479, in the Fifth Circuit on January 22, 2020; en banc oral argument
as amicus curiae in Thomas v. Reeves, No. 19-60133, in the Fifth Circuit on January
P o s t O ff i c e B o x 1 2 5 4 8 , A u s ti n , Tex as 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www.t exas atto r n e yg e n e r a l .g o v

Scott S. Harris
January 21, 2020
Page 2
22, 2020; Respondent’s Brief on the Merits in City of Austin v. Texas Association of
Business, to be filed in the Supreme Court of Texas on January 22, 2020; Respondent’s Brief in Opposition to Petition for a Writ of Certiorari in Jones v. Davis, No.
19-6465, to be filed in this Court on January 28, 2020; Response Brief for PlaintiffsAppellees and Principal Brief for Plaintiffs-Cross-Appellants in Texas v. Rettig, No.
18-10545, to be filed in the Fifth Circuit on January 29, 2020; oral argument in
Thomas v. Davis, 17-70002, in the Fifth Circuit on February 5, 2020; and oral argument in Lulac v. Abbott, 19-50214, in the Fifth Circuit on February 6, 2020.
For the Individual Respondents, those conflicts include Respondent’s Brief on the
Merits to be filed in the Supreme Court of Texas in Austin v. Texas Association of
Business, No. 19-0025, on January 22, 2020; participation in the Texas Public Policy
Foundation’s annual Policy Orientation conference as a moderator of two panels and
a speaker on one panel, from January 22-24, 2020; testifying before the Texas Parks
& Wildlife Department on a proposed regulation, on January 23, 2020; a Motion to
Compel in Percy v. Canton, No. 2:19-cv-11727, to be filed in the U.S. District Court
for the Eastern District of Michigan on January 31, 2020, and a pretrial deadline in
the same case on February 4, 2020; and pretrial deadlines on February 3, 2020 and
February 6, 2020 in Wiley v. Austin, No. D-1-GN-16-004307, in the Travis County
District Court, in preparation for a trial scheduled during the first week of March,
2020.
Petitioners moved this Court to expedite consideration of the petition so that it might
be heard and decided in the current Term. On January 21, 2020, the Court denied
that motion without any noted dissent. If the Court were to hear this case, it would
not do so until next Term; no prejudice will result from the requested extension.

P o s t O f f i c e B o x 1 2 5 4 8 , A u s ti n , Tex as 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www.t exas atto r n e yg e n e r a l .g o v

Scott S. Harris
January 21, 2020
Page 3
For the foregoing reasons, Respondents respectfully request an extension of the
deadline for filing responses to the petitions for writs of certiorari, creating a new
deadline of Tuesday, March 17, 2020, in accordance with Supreme Court Rule 30.1.
Respectfully submitted.
/s/ Robert E. Henneke
ROBERT E. HENNEKE
Counsel of Record
Texas Public Policy Foundation
901 Congress Avenue
Austin, TX 78701
Counsel for Individual Respondents

/s/ Kyle D. Hawkins
KYLE D. HAWKINS
Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Kyle.Hawkins@oag.texas.gov
Counsel for State Respondents

cc:

Samuel P. Siegel (Counsel for State Petitioners)
Douglas N. Letter (Counsel for House of Representatives)

P o s t O f f i c e B o x 1 2 5 4 8 , A u s ti n , Tex as 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www.t exas atto r n e yg e n e r a l .g o v

